♦i

•f

REL: 03/06/2020
STATE OF ALABAMA
JUDICIAL DEPARTMENT
THE COURT OF'CIVIL APPEALS
OCTOBER TERM, 2019-2020
2180893
R.M.S. v. Madison County Department of Human Resources.
2180918
D.A.S. v. Madison County Department of Human Resources.
Appeals from Madison Juvenile Court (JU-17-1319.02).
MOORE, 'Judge.
2180893

AFFIRMED.

NO OPINION.

See Rule 53 (a) (1) and (a) (2) (F) , Ala. R. App. P. ; Rule
28 (a) (10) , Ala. R. App. P. ; -25 CFR § 23.108(b); Andrews v.
Merritt Oil Co., 612 So. 2d 409, 410 (Ala. 1992); W.N. v.
Cullman County Department of Human Resources, 282 So. 3d 870
(Ala. Civ. App. 2019); D.M. v. Jefferson Cty. Pep't of Human
Res. , 232 So. 3d 237, 243 (Ala. Civ. App. 2017); R. D. J. v.
A.P.J,, 142 So. 3d 662, 668 n.4 (Ala. Civ. App. 2013); J, D. V .
Lauderdale Cty. Dep't of Human Res., 121 So. 3d 381, 384 n.2
(Ala. Civ. App. 2013); Salter v. Moseley, 101 So. 3d 242, 247
(Ala. Civ. App. 2012); J. S. v. Etowah Cty. Dep't of Human
Res. , 72 So. 3d 1212, 1223-24 (Ala. Civ. App. 2011); Buco
Bldg. Constructors, Inc, v. Mayer Elec. Supply Co., 960 So. 2d
707, 711-12 (Ala. Civ. App. 2006); Gary v. Crouch, 923 So. 2d
1130, 1136 (Ala. Civ. App.. 2005); and D.M. v. Walker Cty.
Dep't of Human Res., 919 So. 2d 1197, 1205-06 (Ala. Civ. App.
2005) .
2180918

AFFIRMED.

NO OPINION.

See Rule 53(a) (1) and (a) (2) (F) , Ala. R. App. P. ; Rule
28 (a) (10), Ala. R. App. P.;.Rule 45, Ala. R. App. P.; Rule
60(b), Ala. R. Civ. P.; Rule 1(B), Ala. R. Juv. P.; § 12-15301(1), Ala. Code 1975; § 12-15-319(b), Ala. Code 1975; M.J.C.
v. G.R.W., 69 So. 3d 197, 207 (Ala. Civ. App. 2011); Ex parte
L.E.0., 61 So. 3d 1042, 1050 (Ala. 2010); Ex parte Mclnish, 47
So. 3d 767, 778 (Ala. 2008); Ex parte T.V., 971 So. 2d 1, 9

f

2180893 and 2180918
(Ala. 2007); Andrews v. Merritt Oil Co., 612 So. 2d 409, 410
(Ala. 1992); D.M. v. Jefferson Cty. Pep't of Human Res., 232
So. 3d 237, 243 (Ala. Civ. App. 2017); C.O. v. Jefferson Cty.
Dep't of Human Res., 206 So. 3d 621, 627 (Ala. Civ. App.
2016); Salter v. Moseley, 101 So. 3d 242, 247 (Ala. Civ. App.
2012); Burgess v. Burgess, 99 So. 3d 1237, 1239-40 (Ala. Civ.
App. 2012); R.M. v. Elmore Cty. Dep't of Human Res., 75 So. 3d
1195, 1200 (Ala. Civ. App. 2011); J.F.M. v. C.W.B., 72 So. 3d
663, 665-66 (Ala. Civ. App. 2011); J.W. v. C.B., 68 So. 3d
878, 879 (Ala. Civ. App. 2011); Beverly v. Beverly, 28 So. 3d
1, 4 (Ala. Civ. App. 2009); and Clements v. Clements, 990 So.
2d 383, 396 (Ala. Civ. App. 2007).
The motion to submit the corrected preface to original
brief and to include a table to correct an error in the
original brief and the motion to submit a corrected "table of
authorities" to their reply brief and a replacement page filed
by the appellants are granted.
The motion to invoke Rule 45, Ala. R. App. P., and the
motion to supplement brief filed by the appellants are denied.
Thompson, P.J., and Donaldson, Edwards, and Hanson,- JJ.,
concur.

2

APPENDIX C Decision of the Alabama
Supreme Court

42

APPENDIX B Decision of the Alabama Trial
Court

41

IN THE SUPREME COURT OF ALABAMA

July 10, 2020
1190674
Ex parte R.M.S. and D.A.S. PETITION FOR WRIT OF CERTIORARI TO THE COURT OF
CIVIL APPEALS (In re: R.M.S. v. Madison County Department of Human Resources)
(Madison Juvenile Court: JU-17-1319.02; Civil Appeals : 2180893).

CERTIFICATE OF JUDGMENT
WHEREAS, the petition for writ of certiorari in the above referenced cause has been
duly submitted and considered by the Supreme Court of Alabama and the judgment indicated
below was entered in this cause on July 10, 2020:
Writ Denied. No Opinion. Wise, J. - Parker, C.J., and Bolin, Sellers, and Stewart, JJ„
concur.
NOW, THEREFORE, pursuant to Rule 41, Ala. R. App. P., IT IS HEREBY ORDERED
that this Court's judgment in this cause is certified on this date. IT IS FURTHER ORDERED
that, unless otherwise ordered by this Court or agreed upon by the parties, the costs of this
cause are hereby taxed as provided by Rule 35, Ala. R. App. P.
I, Julia J. Weller, as Clerk of the Supreme Court of Alabama, do hereby certify that the foregoing is
a full, true, and correct copy of the instrument(s) herewith set out as same appeals) of record in said
Court.
Witness my hand this 10th day of July, 2020.

a

Clerk, Supreme Court of Alabama

APPENDIX D U.S. Constitutional Provisions
First Amendment
“Congress shall make no law respecting an
establishment of religion, or prohibiting the
free exercise thereof; or abridging the
freedom of speech, or of the press; or the
right of the people peaceably to assemble,
and to petition the Government for a redress
of grievances.”
Fourth Amendment
“The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall
not be violated, and no Warrants shall issue,
but upon probable cause, supported by Oath
or affirmation, and particularly describing
the place to be searched, and the persons or
things to be seized.”
Fourteenth Amendment
“All persons born or naturalized in the
United States, and subject to the jurisdiction
thereof, are citizens of the United States and
of the State wherein they reside. No State
shall make or enforce any law which shall
abridge the privileges or immunities of
citizens of the United States; nor shall any
State deprive any person of life, liberty, or
property, without due process of law; nor

43

deny to any person within its jurisdiction the
equal protection of the laws.”
APPENDIX E Federal Statutory Provisions
18 U.S.C. §241 — “Conspiracy against rights.
If two or more persons conspire to injure,
oppress, threaten, or intimidate any person
in any State, Territory, Commonwealth,
Possession, or District in the free exercise or
enjoyment of any right or privilege secured
to him by the Constitution or laws of the
United States, or because of his having so
exercised the same...”
42
U.S.C.
§290dd-2(a)
“Requirement.
Records of the identity, diagnosis, prognosis,
or treatment of any patient which are
maintained
in
connection
with
the
performance of any program or activity
relating to substance use disorder education,
prevention,
training,
treatment,
rehabilitation, or research,
which is
conducted, regulated, or directly or indirectly
assisted by any department or agency of the
United States shall, except as provided in
subsection (e), be confidential and be
disclosed only for the purposes and under the
circumstances authorized under subsection
(b).”

42 U.S.C. §290dd-2(c) “Use of records in
criminal, civil, or administrative contexts.
Except as otherwise authorized by a court

44

\

order under subsection (b)(2)(C) or by the
consent of the patient, a record referred to in
subsection (a), or testimony relaying the
information contained therein, may not be
disclosed or used in any civil, criminal,
administrative, or legislative proceedings
conducted by any Federal, State, or local
authority, against a patient, including with
respect to the following activities:
“(1) Such record or testimony shall not be
entered into evidence in any criminal
prosecution or civil action before a Federal or
State court.
“(2) Such record or testimony shall not form
part of the record for decision or otherwise be
taken into account in any proceeding before a
Federal, State, or local agency.
“(3) Such record or testimony shall not be
used by any Federal, State, or local agency
for a law enforcement purpose or to conduct
any law enforcement investigation.
“(4) Such record or testimony shall not be
used in any application for a warrant.”
42 U.S.C. §671(a)(15) “provides that—
“(A) in determining reasonable efforts to be
made with respect to a child, as described in
this paragraph, and in making such
reasonable efforts, the child’s health and
safety shall be the paramount concern;

45

“(B) except as provided in subparagraph (D),
reasonable efforts shall be made to preserve
and reunify families—
“(i) prior to the placement of a child in foster
care, to prevent or eliminate the need for
removing the child from the child’s home;
and
“(ii) to make it possible for a child to safely
return to the child’s home;
“(C) if continuation of reasonable efforts of
the type described in subparagraph (B) is
determined to be inconsistent with the
permanency plan for the child, reasonable
efforts shall be made to place the child in a
timely manner in accordance with the
permanency plan (including, if appropriate,
through an interstate placement), and to
complete whatever steps are necessary to
finalize the permanent placement of the
child;
“(D) reasonable efforts of the type described
in subparagraph (B) shall not be required to
be made with respect to a parent of a child if
a court of competent jurisdiction has
determined that—
“(i) the parent has subjected the child to
aggravated circumstances (as defined in
State law, which definition may include but
need not be limited to abandonment, torture,
chronic abuse, and sexual abuse);

46

“(ii) the parent has—
“(I) committed murder (which would have
been an offense under section 1111(a) of title
18, if the offense had occurred in the special
maritime or territorial jurisdiction of the
United States) of another child of the parent;
“(II) committed voluntary manslaughter
(which would have been an offense under
section 1112(a) of title 18, if the offense had
occurred in the special maritime or
territorial jurisdiction of the United States)
of another child of the parent;
“(III) aided or abetted, attempted, conspired,
or solicited to commit such a murder or such
a voluntary manslaughter; or
“(IV) committed a felony assault that results
in serious bodily injury to the child or
another child of the parent; or
“(iii) the parental rights of the parent to a
sibling have been terminated involuntarily;”
42 U.S.C. §671(a) “Requisite features of
State plan. In order for a State to be eligible
for payments under this part, it shall have a
plan approved by the Secretary which —
“(19) provides that the State shall consider
giving preference to an adult relative over a
non-related caregiver when determining a
placement for a child, provided that the

47

relative caregiver meets all relevant State
child protection standards...”
“(29) “provides that, within 30 days 'after the
removal of a child from the custody of the
parent or parents of the child, the State shall
exercise due diligence to identify and provide
notice to the following relatives: all adult
grandparents, all parents of a sibling of the
child, where such parent has legal custody of
such sibling, and other adult relatives of the
child (including any other adult relatives
suggested by the parents), subject to
exceptions due to family or domestic
violence...”
42 U.S.C. §672(a)(2) “Removal and foster
care placement requirements. The removal
and foster care placement of a child meet the
requirements of this paragraph if—
“(A) the removal and foster care placement
are in accordance with—
“(i) a voluntary placement agreement
entered into by a parent or legal
guardian of the child who is the
relative referred to in paragraph (1);
or
“(ii) a judicial determination to the
effect that continuation in the home
from which removed would be
contrary to the welfare of the child
and that reasonable efforts of the type

48

described in section 671(a)(15) of this
title for a child have been made.”
28 U.S.C. §1738A “(a) The appropriate
authorities of every State shall enforce
according to its terms, and shall not modify
except as provided in subsections (f), (g), and
(h) of this section, any custody determination
or
visitation
determination
made
consistently with the provisions of this
section by a court of another State.
“(b) As used in this section, the term—
“(2) “contestant” means a person,
including a parent or grandparent,
who claims a right to custody or
visitation of a child;”
“Before a child custody or
visitation determination is made,
reasonable notice and opportunity to
be heard shall be given to the
contestants,
any
parent
whose
parental rights have not been
previously terminated and any person
who has physical custody of a child.”
“(e)

APPENDIX F Federal Regulatory Provisions
42 C.F.R. §2.11 “Part 2 program means a
federally assisted program (federally assisted
as defined in §2.12(b) and program as
defined in this section).”

49

42 C.F.R. §2.12(b) “Federal assistance. A
program is considered to be federally
assisted if:
(1) It is conducted in whole or in part,
whether directly or by contract or otherwise
by any department or agency of the United
States (but see paragraphs (c)(1) and (2) of
this section relating to the Department of
Veterans Affairs and the Armed Forces);
(2) It is being carried out under a license,
certification
registration,
or
other
authorization granted by any department or
agency of the United States including but not
limited to:
“(i) Participating provider
Medicare program;

in

the

“(ii)

Authorization
to
conduct
maintenance treatment or withdrawal
management; or
“(iii) Registration to dispense a
substance under the
Controlled
Substances Act to the extent the
controlled substance is used in the
treatment of substance use disorders;
“(3) It is supported by funds provided by any
department or agency of the United States
by being:
“(i) A recipient of federal financial
assistance in any form, including

50

financial assistance which does not
directly pay for the substance use
disorder diagnosis, treatment, or
referral for treatment; or
“(ii) Conducted by a state or local
government unit which, through
general or special revenue sharing or
other forms of assistance, receives
federal funds which could be (but are
not necessarily)
spent for the
substance use disorder program; or
“(4) It is assisted by the Internal Revenue
Service of the Department of the Treasury
through the allowance of income tax
deductions for contributions to the program
or through the granting of tax exempt status
to the program.”
42
C.F.R.
§2.13(a)
“Confidentiality
restrictions and safeguards, (a) General. The
patient records subject to the regulations in
this part may be disclosed or used only as
permitted by the regulations in this part and
may not otherwise be disclosed or used in
any civil, criminal, administrative, or
legislative proceedings conducted by any
federal, state, or local authority. Any
disclosure made under the regulations in
this part must be limited to that information
which is necessary to carry out the purpose
of the disclosure.”

51

42 C.F.R. §2.13(b) “Unconditional compliance
required. The restrictions on disclosure and
use in the regulations in this part apply
whether or not the part 2 program or other
lawful holder of the patient identifying
information believes that the person seeking
the information already has it, has other
means of obtaining it, is a law enforcement
agency or official or other government
official, has obtained a subpoena, or asserts
any other justification for a disclosure or use
which is not permitted by the regulations in
this part.”
42 C.F.R. §2.13(c) “Acknowledging the
presence of patients: Responding to requests.
(1) The presence of an identified patient in a
health care facility or component of a health
care facility which is publicly identified as a
place where only substance use disorder
diagnosis, treatment,
or referral for
treatment is provided may be acknowledged
only if the patient's written consent is
obtained in accordance with subpart C of this
part or if an authorizing court order is
entered in accordance with subpart E of this
part.
The
regulations
permit
acknowledgement of the presence of an
identified patient in a health care facility or
part of a health care facility if the health
care facility is not publicly identified as only
a
substance use
disorder diagnosis,
treatment, or referral for treatment facility,

52

and if the acknowledgement does not reveal
that the patient has a substance use
disorder.”
42 C.F.R. §2.3 “Criminal penalty for
violation. Under 42 U.S.C. 290dd-2(f), any
person who violates any provision of this
section or any regulation issued pursuant to
this section shall be fined in accordance with
Title 18 of the U.S. Code.”
42 C.F.R. §2.32(a)(1) “This record which has
been disclosed to you is protected by federal
confidentiality rules (42 CFR part 2). The
federal rules prohibit you from making any
further disclosure of this record unless
further disclosure is expressly permitted by
the written consent of the individual whose
information is being disclosed in this record
or, is otherwise permitted by 42 CFR part 2.
A general authorization for the release of
medical or other information is NOT
sufficient for this purpose (see §2.31). The
federal rules restrict any use of the
information to investigate or prosecute with
regard to a crime any patient with a
substance use disorder, except as provided at
§§2.12(c)(5) & 2.65.”
42
C.F.R.
§2.63
“Confidential
communications. (a) A court order under the
regulations in this part may authorize
disclosure of confidential communications
made by a patient to a part 2 program in the

53

course of diagnosis, treatment, or referral for
treatment only if:
“(1) The disclosure is necessary to
protect against an existing threat to
life or of serious bodily injury,
including
circumstances
which
constitute suspected child abuse and
neglect and verbal threats against
third parties;
“(2) The disclosure is necessary in
connection with investigation or
prosecution of an extremely serious
crime allegedly committed by the
patient, such as one which directly
threatens loss of life or serious bodily
injury, including homicide, rape,
kidnapping, armed robbery, assault
with a deadly weapon, or child abuse
and neglect; or
“(3) The disclosure is in connection
with litigation or an administrative
proceeding in which the patient offers
testimony or other evidence pertaining
to the content of the confidential
communications
42 C.F.R. §2.64 “Procedures and criteria for
orders
authorizing
disclosures
for
noncriminal purposes.
(a) Application. An order authorizing the
disclosure of patient records for purposes

54

other than criminal investigation or
prosecution may be applied for by any person
having a legally recognized interest in the
disclosure which is sought. The application
may be filed separately or as part of a
pending civil action in which the applicant
asserts that the patient records are needed
to provide evidence. An application must use
a fictitious name, such as John Doe, to refer
to any patient and may not contain or
otherwise disclose any patient identifying
information unless the patient is the
applicant or has given written
consent
(meeting the requirements of the regulations
in this part) to disclosure or the court has
ordered the record of the proceeding sealed
from public scrutiny.
“(b) Notice. The patient and the person
holding the records from whom disclosure is
sought must be provided:
“(1) Adequate notice in a manner
which does not disclose
patient
identifyinginformation to
other
persons; and
“(2) An opportunity to file a written
response to the application, or to
appear m person, for the limited
purpose of providing evidence on the
statutory and regulatory criteria for
the issuance of the court order as
described in §2.64(d).

55

“(c) “Review of evidence: Conduct of hearing.
Any oral argument, review of evidence, or
hearing on the application must be held in
the judge's chambers or in some manner
which ensures that patient identifying
information is not disclosed to anyone other
than a party to the proceeding, the patient,
or the person holding the record, unless the
patient requests an open hearing in a
manner which meets the written consent
requirements of the regulations in this part.
The proceeding may include an examination
by the judge of the patient records referred to
in the application.”
“(d) “Criteria for entry of order. An order
under this section may be entered only if the
court determines that good cause exists. To
make this determination the court must find
that:
“(1) Other ways of obtaining the
information are not available or would
not be effective; and
“(2) The public interest and need for
the disclosure outweigh the potential
injury to the patient, the physicianpatient relationship and the treatment
services.”
(e) “Content of order. An order authorizing a
disclosure must:

56

“(1) Limit disclosure to those parts of
the patient's record which are
essential to fulfill the objective of the
order;
“(2) Limit disclosure to those persons
whose need for information is the
basis for the order; and
“(3) Include such other measures as
are necessary to limit disclosure for
the protection of the patient, the
physician-patient relationship and the
treatment services; for example,
sealing from public scrutiny the record
of any proceeding for which disclosure
of a patient's record has been ordered.”
45 C.F.R. §1356.10 “Scone. This part applies
to title IV-E agency programs for foster care
maintenance payments, adoption assistance
payments, related foster care and adoption
administrative and training expenditures,
and the independent living services program
under title IV-E of the Act.”
45 C.F.R. §1356.21(a) “Statutory and
regulatory requirements of the Federal foster
care urogram. To implement the foster care
maintenance payments program provisions
of the title IV-E plan and to be eligible to
receive Federal financial participation (FFP)
for foster care maintenance payments under
this part, a title IV-E agency must meet the

57

requirements of this section, 45 CFR
1356.22, 45 CFR 1356.30, and sections 472,
475(1), 475(4), 475(5), 475(6), and for a
Tribal
title
IV-E
agency
section
479(B)(c)(1)(C)(ii)(II) of the Act.”
45 C.F.R. §1356.21(b) “Reasonable efforts.
The title IV-E agency must make reasonable
efforts to maintain the family unit and
prevent the unnecessary removal of a child
from his/her home, as long as the child's
safety is assured; to effect the safe
reunification of the child and family (if
temporary
out-of-home
placement
is
necessary to ensure the immediate safety of
the child); and to make and finalize alternate
permanency plans in a timely manner when
reunification is not appropriate or possible.
In order to satisfy the “reasonable efforts”
requirements of section 471(a)(15) (as
implemented through section 472(a)(2) of the
Act), the title IV-E agency must meet the
requirements of paragraphs (b) and (d) of
this section. In determining reasonable
efforts to be made with respect to a child and
in making such reasonable efforts, the child's
health and safety must be the paramount
concern.”
45
C.F.R.
§1356.21(b)(1)
“Judicial
determination of reasonable efforts to
prevent a child's removal from the home.

58

“(i) When a child is removed from
his/her
home,
the
judicial
determination
as
to
whether
reasonable efforts were made, or were
not required to prevent the removal,
in accordance with paragraph (b)(3) of
this section, must be made no later
than 60 days from the date the child is
removed from the home pursuant to
paragraph (k)(l)(ii) of this section.
“(ii) If the determination concerning
reasonable efforts to prevent the
removal is not made as specified in
paragraph (b)(l)(i) of this section, the
child is not eligible under the title IVE foster care maintenance payments
program for the duration of that stay
in foster care.”
45 C.F.R. §1356.21(c) “Contrary to the
welfare
determination.
Under
section
472(a)(2) of the Act, a child's removal from
the home must have been the result of a
judicial determination (unless the child was
removed pursuant to a voluntary placement
agreement) to the effect that continuation of
residence in the home would be contrary to
the welfare, or that placement would be in
the best interest, of the child. The contrary to
the welfare determination must be made in
the first court ruling that sanctions (even
temporarily) the removal of a child from

59

home. If the determination regarding
contrary to the welfare is not made in the
first court ruling pertaining to removal from
the home, the child is not eligible for title IVE foster care maintenance payments for the
duration of that stay in foster care.”
45 C.F.R. §1356.21(d) “Documentation of
judicial
determinations.
The
judicial
determinations regarding contrary to the
welfare, reasonable efforts to prevent
removal, and reasonable efforts to finalize
the permanency plan in effect, including
judicial determinations that reasonable
efforts are not required, must be explicitly
documented and must be made on a case-bycase basis and so stated in the court order.
“(1) If the reasonable efforts and contrary to
the welfare judicial determinations are not
included as required in the court orders
identified in paragraphs (b) and (c) of this
section, a transcript of the court proceedings
is the only other documentation that will be
accepted to verify that these required
determinations have been made.
“(2) Neither affidavits nor nunc pro tunc
orders will be accepted as verification
documentation in support of reasonable
efforts and contrary to the welfare judicial
determinations except for a Tribal title IV-E
agency for the first 12 months that agency's

60

title IV-E plan is in effect as provided for in
section 479B(c)(l)(C)(ii)(I) of the Act.
“(3) Court orders that reference State or
Tribal
law
to
substantiate
judicial
determinations are not acceptable, even if
such law provides that a removal must be
based on a judicial determination that
remaining in the home would be contrary to
the child's welfare or that removal can only
be ordered after reasonable efforts have been
made.”
45 C.F.R. §1356.50 “Withholding of funds for
non-compliance with the approved title IV-E
plan.
“(a) To be in compliance with the title IV-E
plan requirements, a title IV-E agency must
meet the requirements of the Act and 45
CFR 1356.20, 1356.21, 1356.30, and 1356.40
of this part.
“(b) To be in compliance with the title IV-E
plan requirements, a title IV-E agency that
chooses to claim FFP for voluntary
placements must meet the requirements of
the Act, 45 CFR 1356.22 and paragraph (a)
of this section; and
“(c) For purposes of this section, the
procedures in § 1355.39 of this chapter
apply.”

61

45
C.F.R.
§1356.86
noncompliance.

“Penalties

for

“(a) Definition of Federal funds subject to a
penalty. The funds that are subject to a
penalty are the CFCIP funds allocated or
reallocated to the State agency under section
477(c)(1) of the Act for the Federal fiscal year
that corresponds with the reporting period
for which the State agency was required
originally to submit data according to section
1356.83(a) of this part.
“(b) Assessed penalty amounts. ACF will
assess penalties in the following amounts,
depending on the area of noncompliance:
“(1) Penalty for not meeting file
submission standards. ACF will assess
a penalty in an amount equivalent to
two and one half percent (2.5%) of the
funds subject to a penalty for each
reporting period in which ACF makes
a final determination that the State
agency's data file does not comply with
the file submission standards defined
in section 1356.85(a) of this part.”
APPENDIX G Alabama Statutory Provisions
Alabama Code §12-15-305(b) “Right to
counsel for petitioners or respondent
parents, legal guardians, or legal custodians
in dependency proceedings. In dependency
and termination of parental rights cases, the

62

respondent parent, legal guardian, or legal
custodian shall be informed of his or her
right to be represented by counsel and, if the
juvenile court determines that he or she is
indigent, counsel shall be appointed where
the respondent parent, legal guardian, or
legal custodian is unable for financial
reasons to retain his or her own counsel.”
Alabama Code §38-12-2(b) “When a child has
been removed from his or her home and is in
the care, custody, or guardianship of the
department, the department shall attempt to
place the child with a relative for kinship
foster care. If the relative is approved by the
department to provide foster care services, in
accordance with rules and regulations
adopted by the department regarding foster
care services, and a placement with the
relative is made, the relative may receive
payment for the full foster care rate only as
provided by federal law for the care of the
child and any other benefits that might be
available to foster parents, whether in
money or in services. Foster care payments
shall cease upon the effective date of the
kinship subsidiary payments or as provided
by the department.
APPENDIX H Alabama Court Rules
Alabama Rule Civil Procedure 60(b).
“Mistakes; inadvertence: excusable neglect:
newly discovered evidence: fraud, etc. On

63

motion and upon such terms as are just, the
court may relieve a party or a party’s legal
representative from a final judgment, order,
or proceeding for the following reasons: ... (6)
any other reason justifying relief from the
operation of the judgment. The motion shall
be made within a reasonable time, and for
reasons (1), (2), and (3) not more than four
(4) months after the judgment, order, or
proceeding was entered or taken. A motion
under this subdivision does not affect the
finality of a judgment or suspend its
operation... This rule does not limit the
power of a court to entertain an independent
action within a reasonable time and not to
exceed three (3) years after the entry of the
judgment (or such additional time given by
§6-2-3 & §6-2-8.”
Alabama Rule Juvenile Procedure 13: “... (2)
There shall be no service by publication of
any proceeding in the juvenile court except
in proceedings to terminate parental rights
or to remove the disabilities of nonage.
“(3) The service of the summons shall give
the juvenile court jurisdiction over the
persons served. Except with respect to
required service upon a child, nothing in this
rule is intended to prevent the court from
proceeding when a person as to whom notice
or service is otherwise required to be given
cannot be found.”

64

APPENDIX I Cases

“(a) Access-to-courts claims fall into two
categories: claims that systemic official
action frustrates a plaintiff in preparing and
filing suits at the present time, where the
suits could be pursued once the frustrating
condition has been removed; and claims of
specific cases that cannot be tried, no matter
what official action may be in the future.
Regardless of whether the claim turns on a
litigating opportunity yet to be gained or an
opportunity already lost, the point of
recognizing an access claim is to provide
some effective vindication for a separate and
distinct right to seek judicial relief for some
wrong. Thus, the access-to-courts right is
ancillary to the underlying claim, without
which a plaintiff cannot have suffered injury
by being shut out of court. It follows that the
underlying claim is an element that must be
described in the complaint as though it were
being independently pursued; and that,
when the access claim (like this one) looks
backward, the complaint must identify a
remedy that may be awarded as recompense
but not otherwise available in some suit that
may yet be brought. The underlying cause of
action and its lost remedy must be addressed
by allegations in the complaint sufficient to
give the defendant fair notice.”

65

Christopher v. Harburv. 536 U.S. 403 (2002)
“(d) Guided by Lassiter, Santosky, and other
decisions acknowledging the primacy of the
parent-child relationship, the Court agrees
with M.L.B. that Mayer points to the
disposition proper in this case: Her parental
termination appeal must be treated as the
Court has treated petty offense appeals, and
Mississippi may not withhold the transcript
she needs to gain review of the order ending
her parental status. The Court's decisions
concerning access to judicial processes,
commencing with Griffin and running
through Mayer, reflect both equal protection
and due process concerns. See Ross v.
Moffitt, 417 U.S. 600, 608-609. In these
cases, "[d]ue process and equal protection
principles converge." Bearden v. Georgia, 461
U.S. 660, 665.”
M.L.B. v. S.L.J. 519 U.S. 102, 104 (1996)
“1. Process is constitutionally due a natural
parent at a state-initiated parental rights
termination proceeding. Pp. 752-757. (a) The
fundamental liberty interest of natural
parents in the care, custody, and
management of their child is protected by
the Fourteenth Amendment, and does not
evaporate simply because they have not been
model parents or have lost temporary

66

custody of their child to the State. A parental
rights termination proceeding interferes with
that fundamental liberty interest. When the
State moves to destroy weakened familial
bonds, it must provide the parents with
fundamentally fair procedures. Pp. 752-754.”
Santoskv v. Kramer. 455 U.S. 745 (1982)
“Under the New York scheme children may
be placed in foster care either by voluntary
placement or by court order. Most foster-care
placements are voluntary. They occur when
physical or mental illness,
economic
problems, or other family crises make it
impossible for natural parents, particularly
single parents, to provide a stable home life
for their children for some limited period.
Resort to such placements is almost
compelled when it is not possible in such
circumstance to place the child with a
relative or friend, or to pay for the services of
a homemaker or boarding school.
“It is one thing to say that individuals may
acquire a liberty interest against arbitrary
governmental interference in the family-like
associations into which they have freely
entered, even in the absence of biological
connection or state-law recognition of the
relationship. It is quite another to say that
one may acquire such an interest in the face

67

of another's constitutionally recognized
liberty interest that derives from blood
relationship, state-law sanction, and basic
human right — an interest the foster parent
has recognized by contract from the outset.
Whatever liberty interest might otherwise
exist in the foster family as an institution,
that interest must be substantially
attenuated where the proposed removal from
the foster family is to return the child to his
natural parents.”
Smith v. Organization of Foster Families.
431 U.S. 816, 824-47 (1977)
“Under the Due Process Clause of the
Fourteenth Amendment petitioner was
entitled to a hearing on his fitness as a
parent before his children were taken from
him. (a) The fact that petitioner can apply for
adoption or for custody and control of his
children does not bar his attack on the
dependency proceeding, (b) The State cannot,
consistently with due process requirements,
merely presume that unmarried fathers in
general and petitioner in particular are
unsuitable and neglectful parents. Parental
unfitness must be established on the basis of
individualized proof. See Bell v. Burson, 402
U.S. 535. Pp. 647-658.”
Stanley v. Illinois. 405 U.S. 645 (1972)

68

Additional material
from this filing is
available in the
Clerk's Office.

